   LEGAL SERVICES
    CORPORATION


          Office of
     Inspector General


Semiannual Report to the Congress
 April 1, 2006 - September 30,2006
                                                 APRIL 1,2006 - SEPTEMBER 30,2006


         TO THE BOARD OF DIRECTORS OF THE LEGAL SERVICES
          CORPORATION AND THE UNITED STATES CONGRESS

               A MESSAGE FROM THE INSPECTOR GENERAL


This Semiannual Report sets forth the significant activities and accomplishments
of the Office of lnspector General (OIG) from April 1, 2006 through
September 30, 2006. During this period, the OIG continued to perform its work
by conducting independent and objective audits, investigations, and other
reviews, and issuing reports on the programs and operations of the Legal
Services Corporation (LSC). This report details our efforts to oversee the system
for routine monitoring of compliance with the restrictions on the use of LSC funds
by grantees and reports on our efforts to improve the effectiveness and efficiency
of LSC. In addition to our regular activities this period we issued two major
reports. The first, in response to a Congressional request, reviewed LSC fiscal
practices. The second, also in response to a Congressional request, concerned
allegations against a major LSC grantee, California Rural Legal Assistance.

I am pleased to report that the foundation for a more positive working relationship
between the OIG and the LSC Board and management appears to have been
established during this reporting period. Regularly scheduled meetings, including
a joint meeting of the Chairman and Vice Chairman with LSC management and
OIG officials, were signs of progress. In addition, I was very pleased by the LSC
Board and management's response to our review of LSC fiscal practices and
their acceptance of our findings and willingness to take prompt corrective action.
I am hopeful that our working relationship will continue to progress in this positive
direction.

On September 26, 2006, 1 testified before the U.S. House of Representatives,
Committee on the Judiciary, Subcommittee on Commercial and Administrative
Law, to comment on the introduction of H.R. 6101, which would, if enacted,
require the agreement of nine of the eleven LSC Board members to remove me
or a future incumbent from the position of lnspector General. I supported this bill
principally because of the need for a strong and independent lnspector General
at LSC.

In this reporting period, we adjusted our work plan to address the two official
inquiries that we received from Congressional committees. As a result of these
inquiries, we had to defer planned audit work but continued with ongoing audits.
We also conducted four audit service reviews. The OIG opened seven
investigations and closed seven investigations. We also briefed the Board and
contacted stakeholders about OIG strategic planning efforts.

As required by the lnspector General Act, I report regularly to the LSC Board and
Congress on our work. In addition, I meet on a regular basis with the LSC
                                               APRIL 1,2006 - SEPTEMBER 30,2006


President. I look forward to continuing to work with Chairman Frank Strickland
and the LSC Board, and with President Helaine Bamett and her senior staff, as
we continue our mutual efforts to forge effective and positive working
relationships. I also would like to extend my personal welcome to Jonann Chiles,
the Board's newest member.

I would like to thank the many Members of Congress, Congressional committees
and subcommittees, and Congressional staff for their confidence in the ability of
my office to provide accurate, objective, and independent information and for
their support of IG independence and resources. I also would like to thank the
LSC Board and management for moving in a more positive direction in their
dealings with the OIG. With their support, the OIG can continue to provide the
information that is needed to help ensure the success of LSC1sstatutory mission
to provide support to programs serving persons unable to afford legal assistance.

Sincerely,



Kirt West
Inspector General

October 31,2006
                                                                    APRIL 1. 2006 .SEPTEMBER 30. 2006


                                   TABLE OF CONTENTS


OFFICE OF INSPECTOR GENERAL OVERVIEW ..............................................1

AUDITS ..............................................................................................................
                                                                                                                 3
     Management of Oversight of Grantees .Office of Program
     Performance and Office of Information Management.............................. 3
     Fiscal Year 2006 Corporate Audit ..............................................................             3
    Audit Service Reviews ............................................................................... 3
     Review of Grantees' Annual Financial Statement and
     Compliance Audit Reports.........................................................................3

l N V E S T I G A T I O N S .......................................................................................6
        Hotline .......................................................................................................
                                                                                                                   6

S T R A T E G I C P L A N N I N G ...........................................................................
                                                                                                          8
       OIG Strategic Planning..............................................................................
                                                                                                          8

L E G A L R E V I E W S ........................................................................................
                                                                                                              9
       Comments on H.R. 6101 ...........................................................................9
       LSC Grant Assurances ..............................................................................    9

O T H E R R E V I E W S .....................................................................................
                                                                                                           10
       Review of LSC Fiscal Practices...............................................................       10
       Interim Findings Regarding California Rural Legal Assistance ................12

OTHER ACCOMPLISHMENTS .........................................................................
                                                                                              14
    OIG Employee Receives Government-wide Award for Evaluating
    Geographic Information Systems ............................................................14

TABLE I .Audit Reports Issued with Questioned Costs for the Period Ending
September 30. 2006 ........................................................................................15

TABLE II .Audit Reports Issued with Funds to Be Put to Better Use for the
Period Ending September 30. 2006 ....................................................................16

TABLE Ill .Index to Reporting Requirements of the Inspector General............ 18
                                                 APRIL 1,2006 - SEPTEMBER 30,2006



       OFFICE OF INSPECTOR GENERAL OVERVIEW

The LSC Office of lnspector General operates under the lnspector General Act of
1978,5 U.S.C. app. 3. In 1988, Congress amended the IG Act and required LSC
and about 30 other, mostly smaller, federally funded entities to establish
independent Offices of lnspector General.

The OIG has two principal missions: I ) to assist management in identifying ways
to promote efficiency and effectiveness in the activities and operations of LSC
and its grantees; and 2) to prevent and detect fraud and abuse. Thus, the OIG
assists management in fostering and overcoming obstacles to good program
management and in preventing future problems. It must also identify and report
on current problems.

The OIG's primary tool for achieving these missions is fact-finding through
financial, performance and other types of audits, evaluations and reviews, as well
as investigations into allegations of wrongdoing. Its fact-finding activities enable
the OIG to develop recommendations to LSC, the Congress and LSC grantees
for actions or changes that will correct problems, better safeguard the integrity of
funds, improve procedures, or otherwise increase efficiency or effectiveness.

The OIG is also tasked with ensuring the quality of audits of LSC and its grantees
that are conducted by independent public accountants, and with reviewing
proposed and existing regulations and legislation affecting the operations and
activities of LSC and the programs it funds.

In addition to the missions shared by all OIGs, Congress, starting with LSC's
FY 1996 appropriation, directed that an additional tool for monitoring grantee
compliance with legal requirements is to be the annual grantee audits conducted
by independent public accountants under guidance developed by the OIG, thus
adding participation in monitoring compliance to the role of the OIG. In addition,
Congress specified the OIG's authority to conduct its own reviews of grantee
compliance.

The OIG is headed by the lnspector General who reports to and is under the
general supervision of the LSC Board of Directors. The IG has broad authority to
manage the OIG, including setting OIG priorities and activities, and to hire OIG
personnel, consultants and experts.

To ensure the objectivity of the IG, the IG Act grants the IG the independence to
determine what reviews are performed; to gain access to all documents needed
for OIG reviews; to publish findings and recommendations based on OIG
reviews; and to report OIG findings and recommendations to the LSC Board and
to Congress. The IG Act also prohibits LSC from assigning to its IG any of LSC's
                                                  APRIL 1,2006- SEPTEMBER 30,2006

own "program operating responsibilities." This means that the OIG does not
perform functions assigned to LSC by the Legal Services Corporation Act, 42
U.S.C. §§2996-29961, other than those transferred to the OIG under the IG Act,
and those otherwise assigned by Congress, for example in the FY 1996
Appropriations Act. The IG Act further provides that the LSC Board of Directors
may not prevent or prohibit the Inspector General from initiating, carrying out, or
completing any audit or investigation.

The IG must report serious problems to the LSC Board and must also report to
appropriate law enforcement authorities when, through audit, investigation or
otherwise, the IG has found that there are reasonable grounds to believe that a
crime has occurred. The OIG is not an "arm" of the Congress, as is the
Comptroller General, but is required by law to keep the Congress informed
through semiannual reports and other means. The IG also provides periodic
reports to the Board and management of LSC and occasionally to the Boards of
Directors and management of LSC grantees. Some of these reports will be
specific (e.g., an audit of a particular grantee or an investigation of a theft), while
others will be of more general interest to management.

Although the OIG is not a part of LSC management, it also is not an adversary of
LSC management. To be most effective, the OIG seeks to work cooperatively
with the Board and management, seeks their input prior to choosing topics for
OIG review, and keeps them informed of OIG activities. Within their different
statutory roles, the OIG and LSC management share a common commitment to
improving the federal legal services program and increasing the availability and
effectiveness of legal services to the poor.
                                                 APRIL 1,2006 - SEPTEMBER 30,2006




                                    AUDITS

In this reporting period, we adjusted our work plan to address two official
inquiries received from Congressional committees. As a result of these inquiries,
we had to defer planned audit work but continued with ongoing audits.

Management of Oversinht of Grantees         - Office of Program Performance
and Office of Information Mana~ement

The OIG is continuing its audit of LSC's oversight of its grant recipients. The
objective of our review is to evaluate the extent of duplication of effort among the
various LSC offices providing oversight and to recommend efficiencies in
providing oversight to LSC recipients. Because of the number of different
program offices involved in the oversight of grantees, the OIG is issuing interim
reports on each program office.

Work is nearing completion for audits of the Office of Program Performance and
the Office of lnformation Management. These reports are scheduled to be
issued during the next reporting period.

Fiscal Year 2006 Corporate Audit

The OIG issued a Request for Proposals to solicit bids from selected audit firms
from the General Services Administration schedule to conduct the FY 2006 LSC
Financial Statement Audit. The incumbent firm was selected and a one-year
contract was executed with two option years. The audit field work is scheduled
to begin in the near future.

Audit Service Reviews

The OIG is responsible for the oversight of the independent public accountants
(IPAs) who are selected by LSC grantees to perform their annual financial and
compliance audits. To fulfill this responsibility, the OIG conducts Audit Service
Reviews (ASRs), which are reviews of the audit documentation of selected lPAs
to ensure they adequately tested the grantee's compliance with LSC regulations.
During this period, the OIG conducted four ASRs. These reports are scheduled
to be issued in the next reporting period.

Review of Grantees' Annual Financial Statement and Com~lianceAudit
Reports

LSC grantees are responsible for submitting annual financial statement and
compliance audits to the OIG. Each grantee contracts with an IPA to conduct
this audit in accordance with Government Auditing Standards, OM9 Circular
A-123, and the LSC OIG Audit Guide for Recipients and Auditors.
                                              APRIL 1,2006- SEPTEMBER 30,2006



During the reporting period, the OIG reviewed 117 IPA audits for recipients with
fiscal years ending from December 31, 2005 through March 31, 2006. These
audits reported 54 findings. The OIG determined that for 29 of these findings,
corrective action had already been implemented, or that the finding was not
significant. The OIG also determined that 25 of the IPA-reported findings were
significant and referred them to LSC1sOffice of Compliance and Enforcement for
follow-up action.
                                                APRIL 1,2006 - SEPTEMBER 30,2006


Audit Reports

     Open at beginning of reporting period

     lssued during reporting period

     Closed during reporting period

     Open at end of reporting period


Recommendations to LSC Grantees

     Pending at beginning of reporting period

     lssued during reporting period

     Closed during reporting period

     Pending at end of reporting period


Recommendations to LSC Management

     Pending at beginning of reporting period

     lssued during reporting period

     Closed during reporting period

     Pending at end of reporting period
                                                APRIL 1,2006- SEPTEMBER 30,2006



                           INVESTIGATIONS


The OIG opened seven investigations during the reporting period. Five cases
involved theft of funds or property; one case involved embezzlement; and one
case involved misuse of grant funds. During the reporting period, the OIG closed
seven investigations. Two cases involved misuse of funds issues; one case
involved embezzlement; three cases involved theft of grantee funds or property;
and there was one investigative project. Investigative resources were also
provided to support the two Congressional inquiries.

One of the open investigative cases concerns allegations that an LSC grantee
staff member submitted fraudulent travel claims to the grantee allegedly to attend
Department of Veterans Affairs (VA) benefits hearings. A joint case was initiated
with the VA OIG to determine the validity of the employee's claims filed in
connection with the hearings. We issued lnspector General subpoenas and
reviewed third party records to determine the validity of mileage and per diem
claimed by the case subject. The case was originally accepted for prosecution
by the local District Attorney's Office during the prior reporting period, but has
since been moved to the United States Attorney's Office for prosecution. To
date, OIG investigators have identified approximately $137,000 of potentially
fraudulent travel claims.

During this reporting period, the OIG issued and served 11 lnspector General
subpoenas. Five subpoenas were issued in a major embezzlement case; two
subpoenas were issued in a theft of funds case; three subpoenas were issued in
a matter involving an LSC employee; and one subpoena was issued in support of
an OIG review of allegations against an LSC grantee.


Hotline

The OIG maintains a Hotline for reporting illegal or improper activities by LSC
grantees or corporate staff. For this reporting period the OIG received 20 Hotline
contacts, with one Hotline complaint referred to LSC management for follow-up.
                                             APRIL 1,2006 - SEPTEMBER 30,2006


Investigative Cases

     Open at beginning of reporting period

     Opened during reporting period

     Closed during reporting period

     Open at end of reporting period


Prosecutorial Activities
     Referred for prosecution

     Accepted for prosecution

     Declined for prosecution


Investigative Activities

     Inspector General subpoenas issued
                                              APRIL 1,2006 - SEPTEMBER 30,2006



                      STRATEGIC PLANNING


OIG Strategic Planning

During the reporting period, the OIG has been working to update its five-year
Strategic Plan. The plan, currently in draft, aligns OIG strategies with LSC's
Strategic Directions and identifies major management challenges to ensure that
our work continues to assist the LSC Board management and Congress in
achieving organizational goals. In our planning process, we have voluntarily
adopted practices under the Government Performance and Results Act, including
the use of annual performance plans and results reports to improve planning,
management and performance. The plan is designed to provide strategic
direction and enable the IG to maintain flexibility and discretion to redirect
resources so we can be a timely, relevant and an effective resource.

The OIG briefed the LSC Board at the July meeting on the plan and finished an
internal LSC request for comment where we received and incorporated many
helpful ideas from the Board and management. Most recently, the OIG shared
the draft with LSC external stakeholders. We expect to finalize the plan before
the end of the calendar year.
                                                APRIL 1,2006 - SEPTEMBER 30,2006



                           LEGAL REVIEWS


Pursuant to the IG1s statutory responsibilities, the OIG reviewed and, where
appropriate, commented on statutory and regulatory provisions affecting LSC
andlor the OIG, as well as LSC interpretive guidance and its internal policies and
procedures.

Comments on H.R. 6101

On September 26, 2006, the lnspector General testified before the U.S. House of
Representatives, Committee on the Judiciary, Subcommittee on Commercial and
Administrative Law, to comment on the introduction of H.R. 6101, which, if
enacted, would require the written agreement of nine of the eleven LSC Board
members to remove the LSC lnspector General. The lnspector General's
testimony detailed the background and conditions which would support
enactment of this bill. Historical and institutional misunderstanding between past
and current Boards and their lnspectors General has threatened the
independence and effectiveness of the LSC lnspector General. Unlike most
lnspectors General who have civil service employment protections, the LSC
lnspector General is an at-will employee and can be terminated by a majority of
the Board without cause. H.R. 6101, which is similar to a provision enacted for
the lnspector General of the United States Postal Service, would require three
more Board members than the current majority requirement of six to remove the
lnspector General, and would thereby promote lnspector General independence.

LSC Grant Assurances

As part of its periodic review process, LSC reviewed and modified the grant
assurances that set conditions for LSC grantees. The OIG recommended LSC
modify several provisions and LSC accepted some of these recommended
changes. At LSC1sJuly 2006 Board of Directors meeting, the OIG deferred its
other recommendations as a result of LSC management's commitment to
conduct a comprehensive review of the grant assurances in 2007. The OIG will
be recommending certain changes in LSC grant assurances to help the OIG
carry out its oversight role and to assist the OIG in investigations into grantee
losses by preserving evidence and obtaining assistance from local law
enforcement. We have committed to working with LSC management in its efforts
to revamp the grant assurances in 2007.
                                                APRIL 1,2006 - SEPTEMBER 30,2006




                           OTHER REVIEWS


Review of LSC Fiscal Practices

On September 25,2006, in response to a Congressional request, the OIG issued
a report on LSC fiscal practices, including allegations of fiscal abuse and
wasteful spending. The LSC Board and management responded positively to the
report and agreed to implement substantially all of the report's recommendations.
In some cases, they had already taken steps to do so.

With respect to many of the allegations, our review found spending practices that
may appear excessive and inappropriate to LSC's status as a federally-funded
non-profit corporation, particularly in light of its mission to distribute taxpayer
dollars to fund legal services for the poor. We also found a number of
transactions which did not follow LSC's own policies and some which would not
be permissible under the rules governing federal agency spending. While
generally those rules are not directly applicable to LSC, they provide a familiar
reference point for Congressional overseers and the public and we
recommended LSC review its policies in light of federal rules. We found that:

      The cost of food at LSC Board meetings appeared excessive in some
      instances and should be reduced. We also found the contracting process
      for Board meetings was not in compliance with LSC's own policies.
      Finally, we found LSC could save thousands of dollars by holding its local,
      Washington, D.C. Board meetings at its headquarters rather than at a
      hotel.

          o LSC management responded that it has already taken
            steps to reduce costs and has agreed to comply with
            this recommendation. In addition, the Board voted
            unanimously at its September 22, 2006 meeting to
            hold its January 2007 meeting at the LSC offices.

The LSC Chairman's authorization for the LSC President to travel to or from any
of her homes in connection with official travel was contrary to the terms of the
General Services Administration (GSA) travel contract and LSC's obligations as
a mandatory user thereunder.

          o LSC management responded that since April 2006
            the LSC President has requested and will continue to
             request reimbursement for her return from business
             trips on a Friday evening or Saturday, regardless of
             which residence she returns to, only in an amount
                                               APRIL 1,2006 - SEPTEMBER 30,2006


              equivalent to the cost of a government rate return to
              Washington, DC, but no more than what she
              personally pays to return to her residence.

      LSC spent over $100,000 on coffee, holiday parties and picnics, working
      lunches, and business entertainment, going back as far as August 2000.
      These expenditures did not violate LSC policy but we questioned whether
      many of them were reasonable and necessary, and whether they were
      appropriate for LSC.

          o   LSC management responded that it has previously
              advised the House and Senate Appropriations
              Committees that it will undertake a review of LSC
              policies to see where they differ from federal policy
              and make modifications where appropriate. LSC
              management noted that there are some instances in
              which LSC might not adopt federal policies, for
              example, if it would cost more money. LSC
              management will brief the Board on any areas of
              difference between LSC policies and practices and
              federal policies and practices and the Board will
              determine how best to proceed.

      LSC spent over $1 million in the past ten years in settlement agreements
      with departing employees.

         o    LSC management responded that it is revising its
              Personnel Manual and will incorporate this review.
              LSC also has been reviewing its settlement policies
              and practices to determine whether costs can be
              reduced and whether they are in the best interest of
              the corporation and appropriate expenditure of public
              funds and will continue to do so.

We also concluded that some of the allegations were unfounded, or could not be
substantiated. Specifically:

      We did not find evidence of excessive or undisclosed bonuses or of other
      confidential or indirect payments by LSC to the LSC President. We found
      no evidence of any "secret deal" between the LSC President and the LSC
      Board of Directors.

      We did not find unreasonable LSC's justification for holding a Board
      meeting in Puerto Rico. LSC stated it was appropriate to visit the largest
      LSC grantee and meet with various judicial officials and members of the
                                                APRIL 1,2006 - SEPTEMBER 30,2006


       bar who are involved in promoting the delivery of legal services to low-
       income individuals in Puerto Rico.

       We did not find widespread first-class travel and found only one instance
       of questionable first-class travel.

      We did not find LSC spending practices violated any laws. However, we
      did find that LSC is not adhering to its contractual obligations under the
      GSA City Pair Contract, as well as instances where it is not following its
      own controls and procedures regarding spending, contracting, and travel.

Our overall recommendations to the LSC Board and LSC management included
the following:

      Undertake a comprehensive review to bring LSC's spending policies and
      practices, particularly in the areas of travel, meals, meetings, and
      entertainment, in line with those applicable to federal agencies, and
      require that the Board review and approve any deviation from federal
      practice.

      Review the overall cost of LSC Board meetings to determine whether
      there are ways to reduce costs. Also, require that LSC's competitive
      requirements are followed in contracting for Board meeting locations.

      Provide training and education for LSC staff to ensure that all LSC policies
      are followed, particularly in the areas of contracting and the Federal Travel
      Regulation related to the GSA City Pair Contract.

      Review LSC employment policies and practices to determine if there are
      opportunities to reduce its potential liability, and review its settlement
      policies and practices to determine whether costs can be reduced and
      whether they are in the best interest of the corporation and are appropriate
      expenditures of public funds.

As stated previously, the LSC Board and management responded positively to
the report and OIG recommendations.

Interim Findinas Reqardina California Rural Leqal Assistance

On September 14, 2006, the OIG issued an lnterim Report detailing its findings
to date and continuing concerns regarding allegations lodged against California
Rural Legal Assistance (CRLA), an LSC grantee. Broadly, the allegations
include an improper focusing of resources on impact work to the detriment of
basic services work and focusing on farmworker and Latino issues to the
detriment of the urban and non-Latino populations in CRLA's service area. The
                                                  APRIL 1,2006 - SEPTEMBER 30,2006


complaint also alleges specific violations of restricted activities directly resulting
from CRLA's desire to engage in impact work.

The OIG found substantial evidence that CRLA violated federal law by soliciting
clients, working a fee-generating case, requesting attorney fees, and associating
CRLA with political activities. The OIG also uncovered several additional CRLA
practices that raise serious concerns about CRLA's deviation from Congress'
intended purpose in enacting the 1996 reforms-to refocus LSC grantees on the
provision of basic legal services to indigent persons seeking assistance. These
concerns, which may or may not violate specific provisions of federal law, include
conducting significant work without a client, potential lobbying activities,
monitoring employers and public agencies, filing of amicus briefs in its
institutional capacity, filing cases on behalf of the "general public" under
California's unfair competition law, and utilizing timekeeping and case
management practices that at least create the condition in which representing
ineligible aliens is possible without detection. The OIG is concerned that CRLA's
activities divert scarce resources away from providing basic services to those
seeking assistance.

The OIG could not complete its investigation due to CRLA's refusal and/or failure
to provide the OIG certain requested information, required to be produced by
federal law and LSC grant requirements. The OIG also encountered difficulties
in trying to determine whether other CRLA activities comply with federal law
because of inadequate LSC timekeeping requirements.
                                              APRIL 1,2006 - SEPTEMBER 30,2006



                     OTHER ACCOMPLISHMENTS


OIG Em~loveeReceives Government-wide Award for Evaluating
Geogra~hicInformation Systems

David Maddox, the OIG's Assistant Inspector General for Resource
Management, was chosen by the Executive Council on Integrity and Efficiency to
receive a Government-wide Individual Award for Excellence for evaluating the
usefulness of Geographic Information Systems (GIs) to develop maps to help
federally-funded legal services managers in their strategic and operational
planning. Starting in 2001, the OIG conducted an evaluation to determine the
usefulness of GIs to develop maps to help legal services managers in their
strategic and operational planning at the local, state and national levels. The
OIG project was designed to evaluate whether GIs had the potential of
increasing effectiveness in determining the level of legal need for the poor,
measuring how services are delivered and determining the effectiveness of
different programs aimed at meeting these needs.
The evaluation used readily available Census and program data, and relatively
low-cost but high-power technology applications, to design and produce maps
that illustrated whether federally-funded legal services were being provided in
geographical areas with the potentially greatest needs. The maps used Census
data showing the poverty population and data on cases funded by LSC to show
the relationship of poverty to the actual distribution of clients served by LSC
grantees. The maps also used other data such as mortgage foreclosures and
domestic violence reports to determine whether LSC-funded programs were
addressing these areas of potential need.

As a result of the evaluation, the OIG determined that maps are a useful
management tool and have potential long-range programmatic benefits in
increasing access to legal services for low-income persons; strengthening
planning, resource and performance management; and improving program
promotion.
                                                    APRIL 1,2006 - SEPTEMBER 30,2006




                                          TABLE I
                      Audit Reports Issued with Questioned Costs
                      for the Period Ending September 30, 2006


                                                    NUMBER
                                                      OF    QUESTIONED UNSUPPORTED
                                                    REPORTS   COSTS       COSTS

A. For which no management decision has been made
         by the commencement of the reporting
         period.

8. Reports issued during the reporting period

         Subtotals (A + B)

LESS:

C. For which a management decision was made
         during the reporting period:

         (i) dollar value of recommendations that
             were agreed to by management

        (ii) dollar value of recommendations that
              were not agreed to by management

D. For which no management decision had been made
         by the end of the reporting period

E. Reports for which no management decision had
        been made within six months of issuance
                                                               APRIL 1,2006 - SEPTEMBER 30,2006




                                                TABLE II
                  Audit Reports Issued with Funds to Be Put to Better Use
                         for the Period Ending September 30, 2006




A. For which no management decision has been made by the                2               $5,640,400
        commencement of the reporting period.


B. Reports issued during the reporting period                           0                    0


        Subtotals ( A + 0)
LESS:

C. For which a management decision was made during the                  1                $203,240
         reporting period:

        (i) dollar value of recommendations that were agreed            1                $203,240
             to by management
        (ii) dollar value of recommendations that were not              0                   $0
                  agreed to by management

D. For which no management decision had been made by the                0
        end of the reporting period


  Reports for which no management decision had been made                1               $5,437,160*
  within six months of issuance


  * Note: This item refers to the OIG's Audit of LSC's Office Space Needs. LSC management generally
  agreed to implement the recommendations of the OIG's audit and document the amount of savings,
  i f any, when management actions are complete. On page 4 of its audit, the OIG states that "until a
  space study has been completed to determine actual space needs, the actual amount of
  overpayment, i f any, cannot be determined." Nevertheless, the OIG assumed that, if LSC paid rent
  for an amount of space calculated by applying a General Services Administration (GSA) guideline of
  230 square feet per person to the number of LSC staff, it would pay $748,000 less per year in rent
  and $5,437,160 over the then-remaining life of the lease.

  LSC management has conducted a benchmark comparison of government and private organizations
  in the Washington area that employ large numbers of attorneys. LSC management believes that the
  benchmarking demonstrates that other organizations that were reviewed actually had higher space
  allocations than LSC's existing space. The OIG believes that regardless of the amount of space
  another organization occupies, LSC's space should be based on LSC's mission requirement. That is
  why the OIG's position remains that the space needs analysis should precede any benchmarking.

  The OIG recommended that LSC conduct a space needs assessment, and should the assessment
  indicate office space needs above GSA guidelines, that management document a direct mission
  requirement and corroborate the need through benchmarking with organizations with similar mission
                                                           APRIL 1,2006- SEPTEMBER 30,2006

and needs. LSC management has indicated a bottoms up review of staffing and a space needs
assessment is in progress and not yet complete. The OIG believes that i f LSC's space study results in
a higher overall average of 230 square feet per person, LSC should first ensure that the mission
mandates a direct requirement for the space. Once the mission link is established, LSC management
should then benchmark its office space with organizations with similar mission and needs.
Therefore, the OIG believes that additional benchmarking may be needed depending on the results
of LSC's ongoing review of staffing and space needs. A final resolution regarding space allocation
and potential cost savings will be made following the conclusion of LSC management's review of
staffing and space needs.
                                                              APRIL 1,2006 - SEPTEMBER 30,2006




                                            TABLE Ill
                               Index to Reporting Requirements
                                   of the lnspector General


   IG ACT
 REFERWE"                                   REPORTING REQUIREMEN7

Section 4(a)(2)    Review of legislation and regulations                                         9

Section 5(a)(l)    Significant problems, abuses, and deficiencies                                10


Section 5(a)(2)    Recommendations with respect to significant problems, abuses, and             12
                   deficiencies

Section 5(a)(3)    Prior significant recommendations on which corrective action has not been    None
                   completed

Section 5(a)(4)   Matters referred to prosecutive authorities                                    6

Section 5(a)(5)   Summary of instances where information was refused                            None

Section 5(a)(6)   List of audit reports by subject matter, showing doliar value of questioned   None
                  costs (including a separate category for the dollar value of unsupported
                  costs) and funds t o be put to better use

Section 5(a)(7)   Summary of each particularly significant report                               10-13

Section 5(a)(8)   Statistical table showing number of audit reports and dollar value of          15
                  questioned costs

Section 5(a)(9)   Statistical table showing number of reports and dollar value of                16
                  recommendations that funds be put t o better use

Section           Summary of each audit issued before this reporting period for which no         16
5(a)(10)          management decision was made by the end of the reporting period

Section           Significant revised management decisions                                      None
5(a)(11)
Section           Significant management decisions with which the Inspector General             None
5(a)(12)          disagrees

*Refers to sections in the lnspector General Act of 1978, as amended.
           INSPECTOR GENERAL HOTLINE
         To report suspected fraud, waste or abuse:
                Call:    1 800 678 8868 or
                           1 202 295 1670
         Or write:         PO Box 3699
                        Washington DC 20027

       You can request that your identity be protected.

LSC employees are protected from reprisals by the Corporation.
